HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by AdminaStar Federal, (A-07-98-01225)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by AdminaStar
Federal," (A-07-98-01225)
October 15, 1998
Complete Text of Report is available in PDF format
(1.09 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by AdminaStar Federal. For 1987 through 1995, we
determined that AdminaStar Federal (Kentucky) claimed pension costs of $736,134
that are unallowable for Medicare reimbursement. During this period, the allowable
Medicare pension costs were $1,576,657. However, Kentucky claimed pension costs
of $2,312,791 for Medicare reimbursement. As a result, Kentucky claimed $736,134
in pension costs that are not allowable. The over claim occurred because the
pension costs exceeded the funded portion of the Cost Accounting Standards (CAS)
computed pension costs. We are recommending that Kentucky revise its Final Administrative
Costs Proposals (FACPs) to eliminate the unallowable pension costs. The auditee
did not provide a response to our report.